WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Michael F. Kissell

20-1103
v.

Pennsylvania Department of Corrections

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature
Date:

signed by Anthony Thomas Kovalchick
Anthony Thomas Kovalchick Digitally
Date: 2021.02.16 14:48:50 -05'00'

February 16, 2021

(Type or print) Name

Anthony Thomas Kovalchick, Deputy Attorney General
□ Mr.

Firm

□ Ms.

□ Mrs.

□ Miss

Pennsylvania Office of Attorney General

Address

1251 Waterfront Place, Mezzanine Level

City & State
Phone

Pittsburgh, PA

412-565-2543

Zip
Email

15222

akovalchick@attorneygeneral.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Michael F. Kissell

